Nic(al RI',

LAW

MCGUIRE LAW, P.C.
55 W. Wacker Dr., 9th Floor
Chicago, Illinois 60601
Tel.: (312) 893-7002
www.mcgpc.com

September 3, 2019
Via FedEx
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

City of Flint, Michigan, et aL, Petitioners v. Shari Guertin, et aL, No. 19-205;
Stephen Busch, et aL, Applicants v. Shari Guertin, et aL, No. 19A111

To whom it may concern:
The undersigned represents the Respondents in the above-referenced matters before the
Court. We write to respectfully request leave to file a single response in opposition to the
Petition for a Writ of Certiorari filed in City of Flint, No. 19-205, and to the forthcoming petition
to be filed in connection with Busch, No. 19A111. Further, pursuant to Supreme Court Rule
30(4), Respondents request a 45-day extension of time to file their response, up to and including
November 2, 2019. This letter sets forth the specific reasons why a single response and an
extension of time are justified.
As an initial matter, it is appropriate to allow Respondents to file a single response to
both petitions because the petitions are related. Both petitions seek review of the same, ruling by
the United States Court of Appeals for the Sixth Circuit, Guertin v. Michigan, Nos. 17-1698, 171699, 17-1745, 17-1752, 17-1769, 912 F.3d 907 (6th Cir. 2019) reh'g en banc denied, 924 F.3d
309, and both groups of Petitioners are defendants in the same case. Guertin, et al. v. Michigan,
et al., 5:16-cv-12412-JEL-MKM (E.D. Mich.). More importantly, both petitions involve similar
and overlapping issues of law and fact. For example, both seek to challenge the Sixth Circuit
Court of Appeals' holdings regarding the sufficiency of Respondents' substantive due process
claims and Petitioners' defense of qualified immunity. Therefore, allowing Respondents to file a
single response will promote judicial economy and help conserve the Parties' and the Court's
resources.
There is also good cause for Respondents' requested extension. First, an extension is
necessary in order to align the deadlines for responding to each petition. Petitioners in City of
Flint filed their Petition on August 14, 2019, within the 90-day deadline of Supreme Court Rule
13. However, Petitioners in Busch sought—and received—an extension of time to file their
forthcoming petition, up to and including September 13. Accordingly, absent an extension of
time, Respondents will be subject to two conflicting response deadlines.
RECEIVED

SEP - 5 2019
OFFICE OF THE CLERK
SUPREME COURT, US:

MCGUIRE LAW, P.C.

Second, an extension is also necessary to allow Respondents to sufficiently analyze and
fully address all of Petitioners' arguments for the benefit of the Court. The questions presented in
Petitioners' petitions involve complex issues of constitutional law. Due to undersigned counsel's
obligations in other courts, additional time is necessary for counsel to, among other things,
review the record and research the law in this Court and the circuit courts to prepare a clear and
concise response for the Court's review, setting forth the reasons that this Court should deny the
petitions. It is therefore appropriate to grant Respondents an extension of time to file their
response, up to and including November 2, 2019.
Respondents make this request in good faith and not for purposes of delay or any other
improper purpose. Respondents have not previously sought an extension of time to file a
response to Petitioners' petitions, and the requested extension will not cause undue delay or
result in undue prejudice to Petitioners. In accordance with Supreme Court Rule 30(2), this
request is being submitted within the period sought to be extended.
The undersigned is not presently a member of the Bar of this Court. However, the
undersigned submitted an application for admission to the Bar of this Court on August 22, 2019,
and is presently awaiting a response from the Clerk. This letter shall be served on all other
parties as required by Supreme Court Rule 29.

One Respondents' Attorneys
Myles McGuire
Paul T. Geske
MCGUIRE LAW, P.C.
55 W. Wacker Drive, 9th Fl.
Chicago, IL 60601
Tel: (312) 893-7002
Fax: (312) 275-7895
mmcguire@mcgpc.com
pgeske@mcgpc.com

Page 2 of 2

